HHS/OIG, Audit - "Review of Skilled Services at Four Seasons Nursing
Center of Durant, Oklahoma," (A-06-07-00046)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Skilled Services at Four
Seasons Nursing Center of Durant, Oklahoma," (A-06-07-00046)
May 28, 2008
Complete
Text of Report is available in PDF format (1.8 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period January 1 through December 31, 2002, we
estimate that Medicare overpaid Four Seasons Nursing Center (Four Seasons)
$792,000 for skilled services that were not (1) medically necessary at the level
provided in a skilled nursing facility (SNF) and/or at the Resource Utilization
Group (RUG) level claimed, (2) adequately supported by adequate documentation, and
(3) properly billed.  Medicare pays SNFs a daily rate to cover skilled services
provided to Medicare beneficiaries.  For billing purposes, SNFs complete an
assessment form that places a patient in a specific payment group, known as a
RUG, based on the patients care and resource needs.
We recommended that Four
Seasons (1) refund to the Medicare program $792,000 in overpayments, (2) work with CMS
to resolve the potential overpayment set-aside totaling approximately $91,000,
(3) ensure that future claims with skilled services comply with Medicare
requirements for medical necessity, (4) strengthen its procedures to ensure that all
Medicare claims are supported by adequate medical documentation and properly
billed, and (5) work with its fiscal intermediary to determine the amount of any
overpayments made subsequent to our audit period.
Four Seasons disagreed with most of our findings and took issue with many
aspects of the review.  However, we rely on the knowledge and expertise of our
medical reviewers and stand by our findings and recommendations.